OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General

PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

April 12, 2021
VIA ELECTRONIC DELIVERY
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Angel Santiago-Gonzalez v. State of Florida, Case No. 20-7495**Capital
Case***

Dear Mr. Harris:
On behalf of the Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a 30-day extension of time to file the Brief in Opposition, extending the April 19,
2021 deadline to May 19, 2021. The extension is necessary because the Office of the
Solicitor General has a number of pressing deadlines in various other matters with limited
staff assistance. Counsel for Petitioner has been contacted and does not object to an
extension of time.
Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record
cc:

Alicia Victoria Wiggins
Counsel of Record

